                                         TD P 15-71

        TREASURY INSPECTOR GENERAL FOR TAX
                  ADMINISTRATION




               Increased Taxpayer Awareness and Improved
                 Guidance Are Needed to Ensure Accurate
                 Direct Deposit of Tax Refunds Claimed on
                           E-Filed Tax Returns

                                      October 2003

                         Reference Number: 2004-40-016




This report has cleared the Treasury Inspector General for Tax Administration disclosure review
process and information determined to be restricted from public release has been redacted from
                                        this document.



Phone Number | 202-622-6500
Email Address | TIGTACommunications@tigta.treas.gov
Web Site      | http://www.tigta.gov

                                         TD P 15-71
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      October 31, 2003


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                          Gordon C. Milbourn III
                                     Assistant Inspector General for Audit (Small Business and
                                     Corporate Programs)

      SUBJECT:                       Final Audit Report - Increased Taxpayer Awareness and
                                     Improved Guidance Are Needed to Ensure Accurate Direct
                                     Deposit of Tax Refunds Claimed on E-Filed Tax Returns
                                     (Audit # 200340029)


      This report presents the results of our review of the direct deposit of tax refunds claimed
      on electronically filed (e-filed) tax returns. The overall objective of this review was to
      determine the effectiveness of controls to prevent the diversion of tax refunds claimed
      on e-filed tax returns to direct deposit1 bank accounts not authorized by the taxpayers.
      The Internal Revenue Service’s (IRS) Electronic Filing (e-file) Program offers taxpayers
      an alternative to filing a traditional paper tax return. The e-file Program enables
      taxpayers to send their tax returns to the IRS in an electronic format via an IRS
      authorized e-file Provider.2 E-file Providers can transmit tax returns they prepared
      and/or transmit tax returns prepared by taxpayers. E-file Providers include individuals
      or organizations that serve as volunteers in IRS-sponsored programs such as the
      Volunteer Income Tax Assistance (VITA) and Tax Counseling for the Elderly (TCE)
      Programs.3 As of July 2003, there were 154,4684 IRS-authorized e-file Providers.



      1
        Direct deposit is an electronic transfer of a tax refund to an account specified by the taxpayer.
      2
        For the purpose of this report, authorized e-file Providers include individuals or businesses that prepare tax returns
      and transmit the tax returns electronically to the IRS, or individuals or businesses that electronically transmit tax
      returns to the IRS from taxpayers who elect to prepare their own tax returns. This does not include TeleFile tax
      returns where taxpayers can e-file their tax returns using a telephone.
      3
        The VITA and TCE Programs provide free tax return preparation including e-filing.
      4
        The IRS provided this figure, and we did not validate it. However, it is overstated, as e-file Providers can be
      authorized to transmit e-filed tax returns to more than one Electronic Individual Return Submission Processing Site.
                                                           TD P 15-71
                                                     TD P 15-71
                                                         2

Since 1988, the IRS has offered taxpayers who e-file the option of having their tax
refunds directly deposited. To obtain a tax refund via direct deposit, taxpayers are
required to provide on their tax returns the Routing Transit Number, Deposit Account
Number, and type of account (checking or savings) to which the refunds will be
deposited. The tax return instructions caution taxpayers that the IRS is not responsible
for a lost tax refund if the taxpayer enters the wrong account information on the tax
return. During the 2002 Filing Season,5 the IRS processed over 39 million e-filed
individual income tax returns, prepared and/or transmitted by an e-file Provider, that had
claims for tax refunds totaling approximately $90 billion, with approximately 30 million of
the tax refund claims (for approximately $75 billion) paid via direct deposit.
Opportunities exist for e-file Providers to change or add direct deposit account numbers
on a taxpayer’s tax return prior to e-filing the tax return to the IRS. This impropriety can
result in a tax refund claimed on an e-filed tax return being directly deposited to a bank
account not authorized by the taxpayer. For example,
****************************************************************************************************
************************(b)(3):26 U.S.C. 6103 (b)(7)(C)**************************. In another
case, ************************(b)(3):26 U.S.C. 6103 (b)(7)(C **********************************
***** ******************************************************************************************
****************************************************************************************************
***************************************************************************************************
A number of factors contribute to the weaknesses identified. One is that the instructions
for completing the United States (U.S.) Individual Income Tax Return (Form 1040) do
not require the taxpayer to void the direct deposit field on the tax return if he or she
wants to receive a paper tax refund check. In addition, cautionary information and/or
educational efforts have not been provided or undertaken to increase taxpayers’
awareness of the need to obtain and retain copies of their tax returns and signature
authorization documents, as well as to ensure the accuracy of direct deposits. Further,
refund inquiry guidance does not contain specific steps to be followed to validate a
taxpayer’s intention when a tax refund is inaccurately directly deposited, and specific
legal guidance does not exist regarding erroneous direct deposits for e-filed tax returns.
Implementation of our recommendations will reduce the risk of tax refunds claimed on
e-filed tax returns being diverted to unauthorized bank accounts. Additionally, our
recommendations will improve the consistency with which taxpayers are treated when
their tax refunds are inaccurately directly deposited. We recommended that the
Commissioner, Wage and Investment (W&I) Division, add a cautionary statement on
e-file signature authorization forms6 alerting taxpayers to the importance of accurately
providing direct deposit bank account information and retaining copies of their tax

5
  The period from January through mid-April when most individual income tax returns are filed.
6
  Signature authorization forms are required to authenticate the electronic tax return and provide certification that the
return is true, correct, and complete. These forms include the U.S. Individual Income Tax Declaration for an IRS
e-file Return (Form 8453) and the IRS e-file Signature Authorization (Form 8879).
                                                     TD P 15-71
                                        TD P 15-71
                                            3

returns; undertake educational efforts to increase taxpayer and e-file Provider
awareness of the importance of taxpayers obtaining and retaining copies of tax returns;
and provide adequate resources to volunteer sites to ensure copies of tax returns are
provided to taxpayers who use these services. We further recommended that the
Commissioner, W&I Division, revise refund inquiry guidance, and explore whether a
legislative change to address the IRS’ authority to reissue a taxpayer’s tax refund in the
event of theft via direct deposit is appropriate.
Management’s Response: Management agreed to implement the majority of our
recommendations, which will reduce the risk of tax refunds claimed on e-filed tax
returns being diverted to unauthorized bank accounts and improve the consistency with
which taxpayers are treated when their tax refunds are inaccurately direct deposited.
Specifically, the IRS is adding a statement to the IRS e-file Signature Authorization
(Form 8879) to remind taxpayers that they should get a copy of their return. The IRS
will develop messages for filing season and practitioner communications and will advise
taxpayers of the need to retain copies of returns and signature forms in national print
and broadcast media in the 2004 e-file marketing campaign. To ensure volunteer tax
preparation sites provide copies of returns to taxpayers, the IRS will include the
requirement in guidance provided to volunteers and site coordinators when establishing
volunteer sites and include the requirement as part of the volunteer training. The IRS
revised guidance to instruct employees to obtain copies of the taxpayer’s return and
compare it with the electronically transmitted data. The IRS will work with the National
Taxpayer Advocate to determine if current procedures for forged checks could be
applied when a theft of a direct deposit has been verified.
Management disagreed with our recommendation to add a cautionary statement to the
U.S. Individual Income Tax Declaration for an IRS e-file Return (Form 8453).
Management cited that the e-file Provider signs a statement on the Form 8453 agreeing
to provide the taxpayer with copies of all forms and information filed with the IRS.
Taxpayers sign Form 8453 declaring that the information given to the e-file Provider
agrees with the electronic return; therefore, the taxpayer would have reviewed the direct
deposit information for accuracy and would receive a copy of the Form 8453 showing
the direct deposit information.
In addition, management acknowledges the outcome measure we reported as being
“potential” revenue protection; however, they do not believe that our outcome measure
reflects a realistic representation of the risk associated with improprieties by e-file
Providers. Further, management indicated that they realize that there are risks
associated with direct deposit; however, existing safeguards minimize these risks.
Management’s complete response to the draft report is included as Appendix V.
Office of Audit Comment: While we still believe our recommendation regarding the
inclusion of a cautionary statement on Form 8453 is worthwhile, we do agree that
improved safeguards will minimize the risk of improprieties by e-file Providers. We do

                                        TD P 15-71
                                        TD P 15-71
                                            4

not intend to elevate our disagreement concerning this matter to the Department of
Treasury for resolution.
As we indicated in our audit report, the outcome is provided in quantifiable terms to
demonstrate the value that our audit recommendations will have on tax administration
and business operations and to show the number of taxpayers who are potentially at
risk when filing an electronic tax return with the assistance of an e-file Provider and the
estimated refund dollars claimed.
The Treasury Inspector General for Tax Administration (TIGTA) has designated this
report as Limited Official Use (LOU) pursuant to Treasury Directive TD P-71-10,
Chapter III, Section 2, “Limited Official Use Information and Other Legends” of the
Department of Treasury Security Manual. Because this document has been designated
LOU, it may only be made available to those officials who have a need to know the
information contained within this report in the performance of their official duties. This
report must be safeguarded and protected from unauthorized disclosure; therefore, all
requests for disclosure of this report must be referred to the Disclosure Section within
the TIGTA’s Office of Chief Counsel.
Please contact me at (202) 622-6510 if you have questions or Michael R. Phillips,
Assistant Inspector General for Audit (Wage and Investment Income Programs), at
(202) 927-0597.




                                        TD P 15-71
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns




                                                  Table of Contents


Background ............................................................................................... Page 1
Opportunities Exist for E-File Providers to Change or Add
Direct Deposit Account Numbers on a Taxpayer’s Tax
Return Prior to E-Filing .............................................................................. Page 3
         Recommendation 1: ......................................................................Page 8
         Recommendations 2 and 3: ...........................................................Page 9
         Recommendation 4: .......................................................................Page 10

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 11
Appendix II – Major Contributors to This Report ....................................... Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Outcome Measures ............................................................ Page 15
Appendix V – Management’s Response to the Draft Report ..................... Page 18




                                                           TD P 15-71
                                      TD P 15-71

 Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
             Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                                The Internal Revenue Service’s (IRS) Electronic Filing
Background
                                (e-file) Program offers taxpayers an alternative to filing a
                                traditional paper tax return. The e-file Program enables
                                taxpayers to send their tax returns to the IRS in an electronic
                                format via an IRS-authorized e-file Provider.1 E-file
                                Providers can transmit tax returns they prepared and/or
                                transmit tax returns prepared by taxpayers. E-file Providers
                                include individuals or organizations that serve as volunteers
                                in IRS-sponsored programs such as the Volunteer Income
                                Tax Assistance (VITA) and Tax Counseling for the Elderly
                                (TCE) Programs.2 As of July 2003, there were
                                154,4683 IRS-authorized e-file Providers.
                                Since 1988, the IRS has offered taxpayers who e-file the
                                option of having their tax refunds directly deposited.4 Tax
                                refunds paid via direct deposit provide benefits to both the
                                taxpayer and the IRS, including:
                                •   Faster and more convenient receipt of the tax refund.
                                •   Security of tax refund payment – no paper check to lose.
                                •   Reduced tax refund issuance cost for the IRS when
                                    compared with issuing a paper tax refund check.
                                To obtain a tax refund via direct deposit, the taxpayer is
                                required to provide on the tax return the Routing Transit
                                Number, Deposit Account Number, and type of account
                                (checking or savings) to which the refund will be deposited.
                                The tax return instructions caution the taxpayer that the IRS


                                1
                                  For the purpose of this report, authorized e-file Providers include
                                individuals or businesses that prepare tax returns and transmit the tax
                                returns electronically to the IRS, or individuals or businesses that
                                electronically transmit tax returns to the IRS from taxpayers who elect
                                to prepare their own tax returns. This does not include TeleFile tax
                                returns where taxpayers can e-file their tax returns using a telephone.
                                2
                                  The VITA and TCE Programs provide free tax return preparation
                                including e-filing.
                                3
                                  The IRS provided this figure, and we did not validate it. However, it is
                                overstated, as e-file Providers can be authorized to transmit
                                electronically filed tax returns to more than one Electronic Individual
                                Return Submission Processing Site.
                                4
                                  Direct deposit is an electronic transfer of a tax refund to an account
                                specified by the taxpayer.
                                                         TD P 15-71                                          Page 1
                                     TD P 15-71

Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                               is not responsible for a lost tax refund if the taxpayer enters
                               the wrong account information on the tax return.
                               During the 2002 Filing Season,5 over 39 million
                               electronically filed (e-filed) tax returns were prepared and/or
                               transmitted by an e-file Provider and had claims for tax
                               refunds totaling approximately $90 billion. Approximately
                               30 million of the tax refund claims (for approximately
                               $75 billion) were paid via direct deposit.
                               Tax Refunds Issued During 2002 Filing Season by E-File Providers

                                                          Volume of Tax           Dollars Claimed in
                               Type of Tax Refund         Refunds Issued            Tax Refunds
                                   Paper Check               9,655,103             $14,735,202,248
                                   Direct Deposit           29,923,547             $75,350,244,407
                                       Total                39,578,650             $90,085,446,655
                               Source: Wage and Investment Division Electronic Tax Administration
                               Final Tax Year 2001 National Service Center Report Through
                               October 20, 2002, and IRS personnel.

                               The IRS generally processes an e-filed tax return and issues
                               the tax refund within 3 weeks from the date the tax return is
                               received. Subsequent to the 3-week period, taxpayers who
                               do not receive their tax refunds can contact any of the
                               various IRS Customer Service functions to inquire about
                               their missing tax refunds. The IRS’ Customer Service
                               options include calling the toll-free telephone service, using
                               the automated tax refund inquiry system, visiting a
                               Taxpayer Assistance Center, sending in correspondence,
                               and contacting the Taxpayer Advocate Service.6 The
                               identification of missing tax refunds is based solely on
                               taxpayers contacting the IRS, as the IRS has no process to
                               proactively identify missing tax refunds.
                               Contacting the IRS through the above Customer Service
                               options initiates the IRS’ tax refund inquiry process. The

                               5
                                 The period from January through mid-April when most individual tax
                               returns are filed.
                               6
                                 “Lost or stolen refunds” was ranked 8th of 25 reasons why taxpayers
                               contacted the Taxpayer Advocate Service for Fiscal Year 2002, based
                               on the Taxpayer Advocate Management Information System receipts
                               from October 1, 2001, to September 30, 2002.
                                                       TD P 15-71                                      Page 2
                                       TD P 15-71

 Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
             Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                                 IRS’ Refund Inquiry Unit will work with the taxpayers to
                                 obtain pertinent information and perform research to
                                 determine what may have happened to the missing refunds.
                                 Audit work was performed at the National Headquarters for
                                 Electronic Tax Administration (Washington, D.C.) and the
                                 five Electronic Individual Return Submission Processing
                                 Sites7 that accept and process e-filed individual income tax
                                 returns. Audit work was performed from October 2002
                                 through June 2003 in accordance with Government Auditing
                                 Standards. Detailed information on our audit objective,
                                 scope, and methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 Opportunities exist for e-file Providers to change or add
Opportunities Exist for E-File
                                 direct deposit account numbers on a taxpayer’s tax return
Providers to Change or Add
                                 prior to e-filing the tax return with the IRS. This
Direct Deposit Account
                                 impropriety can result in tax refunds claimed on e-filed tax
Numbers on a Taxpayer’s Tax
                                 returns being directly deposited to bank accounts not
Return Prior to E-Filing
                                 authorized by the taxpayers. Specifically, instances have
                                 occurred where e-file Providers and volunteers participating
                                 in the IRS’ VITA Program have altered direct deposit
                                 information on e-file tax returns prior to transmitting the tax
                                 returns to the IRS. These alterations, whether intentional or
                                 inadvertent, have resulted in tax refunds being directly
                                 deposited to bank accounts not authorized by the taxpayers.
                                 For example:
                                 •   *******(b)(3):26 U.S.C. 6103 (b)(7)(C)***************
                                     ******************************************
                                     *********************************************
                                     ***************************************
                                 •   *******(b)(3):26 U.S.C. 6103 (b)(7)(C)***************
                                     *********************************************
                                     *********************************************
                                     *********************************************

                                 7
                                  Electronic Individual Return Submission Processing Sites are located
                                 at the Andover, Massachusetts; Austin, Texas; Cincinnati, Ohio;
                                 Memphis, Tennessee; and Ogden, Utah IRS campuses. The campuses
                                 are the data processing arms of the IRS; they process submissions,
                                 correct errors, and forward data to the computing centers for analysis
                                 and posting to taxpayer accounts.
                                                         TD P 15-71                                       Page 3
                                     TD P 15-71

Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                                   *********(b)(3):26 U.S.C. 6103
                                   (b)(7)(C)**************************************
                                   *********************************************
                               Furthermore, the IRS policy is not consistent in how it
                               resolves stolen tax refund checks and fraudulently diverted
                               direct deposits of tax refunds. In situations that involve
                               inaccurate direct deposits, the burden is on the taxpayer to
                               show that the refund was deposited to a bank account other
                               than the bank account he or she designated on the tax return.
                               An IRS Chief Counsel Advice8 dated September 6, 2002,
                               stated that in the context of direct deposit, the IRS satisfies
                               its burden of proof by showing that the tax refund was sent
                               to the bank account designated on the tax return. If the
                               taxpayer does not show that the tax refund was deposited to
                               an account other than the bank account he or she designated
                               on the return, then the IRS does not have authority to
                               replace the incorrectly deposited tax refund.
                               This advice differs significantly from the IRS’ policy related
                               to stolen tax refund checks. For example, if a taxpayer’s tax
                               refund check is stolen, the IRS will reissue the refund. In
                               comparison, if a tax refund is fraudulently directly deposited
                               to an unauthorized bank account, in most cases the IRS will
                               not reissue the tax refund. The IRS’ position is that the tax
                               refund was deposited to the account specified on the tax
                               return. This does not take into account possible
                               manipulation of the direct deposit information prior to the
                               tax return being transmitted to the IRS.
                               In many cases involving theft of tax refunds via direct
                               deposit, the IRS functions assisting a taxpayer with a tax
                               refund inquiry may obtain a legal opinion from the IRS
                               Chief Counsel to determine if the IRS has the authority to
                               replace the taxpayer’s tax refund. Varied responses have
                               been received and have led to inconsistent treatment of
                               taxpayers even when the circumstances involved in the
                               cases are identical. For example, one taxpayer could be

                               8
                                 A Chief Counsel Advice is written advice or instruction prepared by
                               the Office of Chief Counsel that is issued to IRS employees. It conveys
                               legal interpretation of internal revenue law either in general or as
                               applied to specific taxpayers or groups of specific taxpayers.
                                                       TD P 15-71                                        Page 4
                                     TD P 15-71

Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                               informed by the IRS that he or she is not entitled to a
                               reissuance of the tax refund, while another taxpayer may
                               have already had his or her tax refund reissued by the IRS.
                               Contributing factors
                               Several factors present opportunities for inaccurate direct
                               deposit of tax refunds by e-file Providers and inconsistent
                               treatment of taxpayers:
                               Instructions for completing the United States (U.S.)
                               Individual Income Tax Return (Form 1040) do not
                               require the taxpayer to void the direct deposit fields if
                               the taxpayer does not use them (i.e., elects to receive a
                               paper check tax refund). Specifically, the instructions do
                               not require the taxpayer to take any preventive steps to
                               ensure the direct deposit fields on the tax return cannot be
                               manipulated prior to the transmission of the tax return to the
                               IRS (e.g., place “x’s” in the direct deposit fields, thereby
                               voiding them rather than leaving them blank).
                               In response to a previously issued Treasury Inspector
                               General for Tax Administration (TIGTA) report,9 IRS
                               management agreed to coordinate with the tax software
                               developers to initiate modifications to their Tax Year
                               (TY) 2003 software programs. These modifications will
                               eliminate direct deposit fields on e-filed tax returns if a
                               taxpayer elects to receive a paper tax refund check.
                               Therefore, we did not include a specific recommendation to
                               address this issue.
                               E-file signature authorization forms do not contain
                               cautionary statements alerting taxpayers of the need to
                               ensure the direct deposit information is accurate and to
                               obtain and retain copies of their tax returns. E-file
                               signature authorization forms authenticate the e-filed tax
                               returns and provide certification from the taxpayers that the
                               tax returns are true, correct, and complete. Cautionary
                               information is not provided on two e-file signature
                               authorization forms, the U.S. Individual Income Tax
                               Declaration for an IRS e-file Return (Form 8453) and the

                               9
                                Controls Need to Be Improved to Ensure Accurate Direct Deposit of
                               Tax Refunds (Reference Number 2003-40-108, dated May 2003).
                                                      TD P 15-71                                    Page 5
                                    TD P 15-71

Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                               IRS e-file Signature Authorization (Form 8879). A
                               cautionary statement is needed for taxpayers to ensure direct
                               deposit information is accurate and to ensure they obtain
                               and retain copies of their tax returns.
                               Instructions for completing these forms do caution taxpayers
                               to verify the accuracy of their tax returns. However, the
                               cautionary statement is included as part of the Form 1040
                               instruction package, which the taxpayers will most likely
                               not have read since they are using a paid tax return preparer
                               and are not preparing the returns themselves.
                               Taxpayers may not be adequately educated as to the
                               need to obtain and retain copies of their tax returns.
                               Educational efforts have not been made to alert taxpayers of
                               the need to obtain and retain copies of their returns and
                               signature authorization forms. These documents are the sole
                               support the taxpayers have to validate their intention as to
                               how and where their refunds should have been issued.
                               For those taxpayers who have their tax returns prepared by
                               VITA/TCE volunteers at VITA/TCE sites, resources may
                               not be adequate to ensure these taxpayers are provided
                               copies of their tax returns. During TY 2002, a total of
                               12,975 VITA/TCE sites prepared over 1.4 million tax
                               returns, of which approximately 922,000 (66 percent) were
                               e-filed. IRS management has acknowledged the shortage of
                               equipment, which affects the IRS’ ability to provide
                               taxpayers who use VITA/TCE sites with copies of their tax
                               returns and signature authorization forms.
                               Guidance used by the IRS function that assists taxpayers
                               with refund inquiries does not contain specific steps to
                               be followed to validate a taxpayer’s intention when a tax
                               refund is inaccurately directly deposited. Specifically,
                               the guidance does not require a comparison of the direct
                               deposit information as provided by the taxpayer on his or
                               her copy of the e-filed tax return to information transmitted
                               to the IRS. In addition, guidance does not provide steps to
                               be taken subsequent to the TIGTA Office of Investigations’
                               processing of diverted direct deposit tax refund cases.


                                                    TD P 15-71                                 Page 6
                                     TD P 15-71

Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                               Guidance has not been not clearly established to reissue
                               tax refunds regarding erroneous direct deposits, to
                               ensure consistent treatment of taxpayers. Internal
                               Revenue Code (I.R.C.) Section (§) 640210 provides guidance
                               on the authority of the IRS to issue a tax refund. However,
                               the I.R.C. addresses only those instances involving the theft
                               of a paper tax refund check by forgery; it does not address
                               theft of a tax refund via direct deposit. In summary, there is
                               no clear legal guidance addressing the IRS’ legal authority
                               to reissue direct deposit tax refunds.
                               Impact of control weaknesses
                               If controls are not strengthened, the opportunity for e-file
                               Providers to divert tax refunds claimed on e-filed tax returns
                               to unauthorized bank accounts remains high. At risk is the
                               potential revenue protection of over $75 billion in tax
                               refunds claimed by 30 million individuals who filed
                               electronic tax returns using an e-file Provider and elected to
                               receive their tax refunds via direct deposit.11
                               Therefore, it is important that taxpayers who elect to e-file
                               ensure they obtain and retain copies of their tax returns and
                               associated signature authorization documents. These
                               documents are the sole support for the taxpayers in
                               situations that involve inaccurate direct deposits to
                               unauthorized bank accounts. Further, the tax return preparer
                               is required by law12 to provide a completed copy of the
                               original tax return to the taxpayer.

                               Recommendations

                               Implementation of our recommendations will reduce the risk
                               of tax refunds claimed on e-filed tax returns being diverted
                               to unauthorized bank accounts. Additionally, our
                               recommendations will improve the consistency with which
                               taxpayers are treated when their tax refunds are inaccurately
                               directly deposited.

                               10
                                  I.R.C. § 6402 (2002).
                               11
                                  For more details on the calculation, see Appendix IV.
                               12
                                  I.R.C. § 6107 (2002) – Income tax return preparer must furnish a copy
                               of the return to the taxpayer and must retain a copy or record.
                                                       TD P 15-71                                         Page 7
                                    TD P 15-71

Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                               The Commissioner, Wage and Investment (W&I) Division,
                               should:
                               1. Include a cautionary statement on e-file signature
                                  authorization forms explaining the need for the taxpayer
                                  to ensure direct deposit information is accurate and to
                                  obtain and retain a copy of his or her tax return and
                                  signature authorization form. The Commissioner should
                                  also design and execute an education campaign to
                                  increase taxpayer and e-file Provider awareness of the
                                  need for taxpayers to obtain and retain copies of their
                                  tax returns and signature authorization forms.
                               Management’s Response: The IRS agreed in part with this
                               recommendation. For the first part, the IRS is adding a
                               statement to Form 8879 to remind taxpayers that they
                               should get a copy of their return. The reminder will be
                               prominently displayed in bold face type beside the Part II
                               caption, Taxpayer Declaration and Authorization Statement,
                               on the front of the form. However, the IRS does not agree
                               that additional cautionary statements are needed on
                               Forms 8879 or 8453. The IRS believes that sufficient
                               cautionary statements are already present.
                               To address the second part of this recommendation, the IRS
                               will develop messages for filing season and practitioner
                               communications. It will alert taxpayers to the need to retain
                               copies of returns and signature forms in national print and
                               broadcast media in the 2004 e-file marketing campaign and
                               on a more personal level through community based
                               coalitions.
                               While IRS management agreed with the accuracy of our
                               figures as “potential” revenue protection, they did not
                               believe that our outcome reflects a realistic representation of
                               the risk associated with improprieties by e-file Providers.
                               Further, management indicated that they realize that there
                               are risks associated with direct deposit; however, existing
                               safeguards minimize these risks.
                               Office of Audit Comment: While we still believe our
                               recommendation regarding the inclusion of a cautionary
                               statement on Form 8453 is worthwhile, we do agree that

                                                    TD P 15-71                                   Page 8
                                     TD P 15-71

Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                               improved safeguards will minimize the risk of improprieties
                               by e-file Providers. Further, as we indicated in our audit
                               report, the outcome is provided in quantifiable terms to
                               demonstrate the value that our audit recommendations will
                               have on tax administration and business operations and to
                               show the number of taxpayers who are potentially at risk
                               when filing an electronic tax return with the assistance of an
                               e-file Provider and the estimated refund dollars claimed.
                               2. Ensure that VITA and TCE sites have the resources to
                                  provide taxpayers who elect to e-file their tax returns
                                  with copies of their completed tax returns and signature
                                  authorization forms.
                               Management’s Response: Since the inception of e-file into
                               IRS’ volunteer programs, volunteers have been required to
                               supply a copy of the tax return and the signature
                               authorization form to each taxpayer assisted. Computer
                               equipment and printers are provided to volunteer tax
                               preparation sites in order to e-file returns and to print copies
                               of the necessary documents for taxpayers.
                               To ensure volunteer tax preparation sites provide copies of
                               returns to taxpayers, the IRS will include the requirement in
                               guidance provided to volunteers and site coordinators when
                               establishing volunteer sites and include the requirement as
                               part of the volunteer training.
                               3. Revise refund inquiry guidance to ensure copies of
                                  e-filed tax returns are obtained from the taxpayers and
                                  compared to what was transmitted to the IRS, and
                                  include the specific steps to be taken subsequent to the
                                  TIGTA Office of Investigations’ review of referred
                                  cases.
                               Management’s Response: Guidance was revised to instruct
                               employees to obtain copies of the taxpayer’s return and
                               compare it with the electronically transmitted data.
                               Procedures include forwarding copies of the return and the
                               Integrated Data Retrieval System13 prints of the transmitted
                               data to the TIGTA Office of Investigations for review. The
                               13
                                 IRS computer system capable of retrieving or updating stored
                               information; it works in conjunction with a taxpayer’s account records.
                                                        TD P 15-71                                       Page 9
                                    TD P 15-71

Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                               IRS is coordinating with the TIGTA Office of Investigations
                               on the processing of completed cases and will include
                               additional instructions concerning the processing of
                               completed cases in a revision to the Internal Revenue
                               Manual 21.4, Refund Inquiry.
                               4. Develop interim procedures and work with the National
                                  Taxpayer Advocate to explore whether a legislative
                                  change to the I.R.C. to address the IRS’ authority to
                                  reissue a taxpayer’s tax refund in the event of theft via
                                  direct deposit is appropriate.
                               Management’s Response: The IRS will work with the
                               National Taxpayer Advocate to determine if current
                               procedures for forged refund checks could be applied when
                               a theft of a direct deposit has been verified. If current
                               procedures are determined to be inadequate, the IRS will
                               support efforts to improve the process through policy
                               directives or legislative remedy, if appropriate.




                                                   TD P 15-71                                 Page 10
                                          TD P 15-71
    Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
                Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of controls to prevent the
diversion of tax refunds claimed on electronically filed (e-filed) tax returns to direct deposit bank
accounts1 not authorized by the taxpayers. To accomplish this objective, we:
I.       Obtained and reviewed the Internal Revenue Service’s (IRS) guidance relating to the
         processing of e-filed tax returns.
II.      Identified the process followed for processing e-filed tax returns.
         A. Identified the filing requirements for taxpayers who request a direct deposit of their
            individual income tax return refunds.
         B. Held discussions with representatives from the Submission Processing function2 to
            identify controls in place for processing e-filed tax returns.
III.     Determined if the IRS had controls in place to ensure that all e-filed tax returns
         requesting a tax refund were not directly deposited to unauthorized bank accounts.
         A. Identified tax refunds claimed on e-filed individual income tax returns that were
            potentially being diverted to unauthorized bank accounts.
         B. Calculated the number of tax returns with direct deposits as well as the amount of the
            tax refunds issued.
IV.      Interviewed management to identify factors that contributed to the inadequate IRS
         controls to prevent unauthorized direct deposit tax refunds and what actions the IRS had
         taken to improve controls.
V.       Identified the process to assist taxpayers who experience losses due to tax refund fraud.
         A. Identified the Refund Inquiry Unit process to assist taxpayers whose tax refunds were
            either inadvertently or intentionally diverted to incorrect bank accounts via direct
            deposit.


         B. Performed a walk-through at the Andover Submission Processing Site to determine
            how taxpayers are assisted in obtaining a replacement tax refund.
1
 Direct deposit is an electronic transfer of a tax refund to an account specified by the taxpayer.
2
 Electronic Individual Return Submission Processing Sites are located at the Andover, Massachusetts; Austin,
Texas; Cincinnati, Ohio; Memphis, Tennessee; and Ogden, Utah IRS Campuses. The campuses are the data
processing arms of the IRS. The campuses process submissions, correct errors, and forward data to the computing
centers for analysis and posting to taxpayer accounts.
                                             TD P 15-71                                     Page 11
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

     C. Held discussions with representatives from the Accounts Management function to
        identify controls to identify potential cases of tax refunds diverted via direct deposit
        to bank accounts not authorized by the taxpayers.




                                     TD P 15-71                                 Page 12
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Kerry Kilpatrick, Director
Russell Martin, Acting Director
Lynn Faulkner, Senior Auditor
Edith Lemire, Senior Auditor
Grace Terranova, Senior Auditor




                                     TD P 15-71                             Page 13
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                                                                          Appendix III


                               Report Distribution List

Deputy Chief Financial Officer, Department of the Treasury
Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
National Taxpayer Advocate TA
Deputy Commissioner, Wage and Investment Division SE:W
Director, Electronic Tax Administration OS:CIO:I:ET
Director, Stakeholder Partnerships, Education, and Communication SE:W:CAR:SPEC
Director, Strategy and Finance SE:W:S
Director, Submission Processing SE:W:CAS:SP




                                  TD P 15-71                           Page 14
                                          TD P 15-71
    Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
                Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                                                                                                    Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
This issue is of interest to Internal Revenue Service (IRS) and Department of the Treasury
executives, the Congress, and the taxpaying public and is expressed in quantifiable terms to
provide further insights to the value of the entity affected and potential impact of the issue. The
value of entity measure is presented to express in quantifiable terms the number of taxpayers
who file an electronic return with the assistance of an authorized electronic filing (e-file)
Provider1 and estimated refund dollars claimed. While we cannot determine the specific number
of taxpayers or refund dollars that may be affected through improprieties by authorized e-file
Providers, the risk exists if controls are not strengthened.
Type and Value of Outcome Measure:
Revenue protection is used here to demonstrate the value of our audit recommendations on tax
administration and business operations.
      •   Revenue Protection (Value of Entity) – Potential; an estimated 30 million taxpayers who
          file an individual electronic tax return with the assistance of an authorized e-file Provider
          and use the direct deposit option (see page 3).
      •   Revenue Protection – Potential; an estimated $75 billion in tax refunds claimed by
          taxpayers who file an individual electronic tax return with the assistance of an authorized
          e-file Provider and use the direct deposit option (see page 3).
Methodology Used to Measure the Reported Benefit:
We determined the number of taxpayers claiming tax refunds on electronically filed (e-filed)
individual income tax returns filed by an e-file Provider by identifying the number of Tax Year
(TY) 20012 e-filed individual income tax returns based on the final TY 2001 Service Center
Report.3 We then subtracted the number of balance due e-filed tax returns (no tax refund issued



1
  An authorized e-file Provider originates the electronic submission of income tax returns to the IRS.
2
  TY 2001 tax returns were processed in the Electronic Individual Return Submission Processing Sites located at the
Andover, Massachusetts; Austin, Texas; Cincinnati, Ohio; Memphis, Tennessee; and Ogden, Utah IRS Campuses
starting January 11, 2002. The campuses are the data processing arms of the IRS. The campuses process
submissions, correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
3
  Final TY 2001 Service Center Report dated October 20, 2002.
                                              TD P 15-71                                        Page 15
                                          TD P 15-71
    Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
                Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

to the taxpayer) and subtracted the number of TeleFiled4 tax returns (no e-file Provider required
to e-file tax return) based on the same report (see page 16).
We determined the amount of tax refunds on e-filed individual income tax returns filed by an
e-file Provider based on information provided by the Electronic Tax Administration (ETA)
function, since the TY 2001 Service Center Report does not identify dollars. We subtracted the
tax refund dollars for all TeleFiled tax returns obtained from the ETA Analyst, from the tax
refund dollars for all e-filed tax returns, to obtain tax refunds on e-filed tax returns filed by an
e-file Provider for the taxpayers (see page 16).




4
    The TeleFile Program allows taxpayers to file their tax returns electronically using a telephone.
                                                 TD P 15-71                                        Page 16
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns



                      Table 1 - Calculation of Revenue Protection Numbers

                                                                                   Dollar Amount
                                           Number of Tax Returns                   of Tax Refunds

Total E-Filed Tax Returns                                  46,890,813
Accepted

    Less: Balance Due Returns                                3,326,778
    (no tax refund due)

Total E-Filed Tax Returns                                  43,564,035                      $92,422,294,124
Claiming a Tax Refund

    Less: TeleFiled Tax Returns                              3,985,385                      $2,336,847,469
    Claiming a Tax Refund

Total E-Filed Tax Returns                                  39,578,650                      $90,085,446,655
Claiming a Tax Refund Filed by an
E-File Provider

Total E-Filed Tax Returns                                    9,655,103                     $14,735,202,248
Requesting a Paper Check Tax
Refund

Total E-Filed Tax Returns                                  29,923,547                      $75,350,244,407
Requesting a Direct Deposit Tax
Refund
Source: Wage and Investment Division Electronic Tax Administration Final Tax Year 2001 National Service Center
Report through October 20, 2002, and IRS personnel.




                                           TD P 15-71                                     Page 17
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns

                                                                     Appendix V


                  Management’s Response to the Draft Report




                               TD P 15-71                        Page 18
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns




                               TD P 15-71                        Page 19
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns




                               TD P 15-71                        Page 20
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns




                               TD P 15-71                        Page 21
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns




                               TD P 15-71                        Page 22
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns




                               TD P 15-71                        Page 23
                                      TD P 15-71
Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure Accurate
            Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns




                               TD P 15-71                        Page 24
